TN
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 20-5

RICHARD BLUMENTHAL, ET AL.,
Petitioners,

v.
DONALD J. TRUMP,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF BIPARTISAN FORMER MEMBERS OF CONGRESS

AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case.

served by third-party commercial carrier for delivery within 3 calendar days.
following:

All parties required to be served have been
Packages were plainly addressed to the

SEE ATTACHED
To be filed for:
BEN FEUER WALTER E. DELLINGER III
Counsel of Record DUKE UNIVERSITY

ANNA-ROSE MATHIESON 210 Science

CALIFORNIA APPELLATE
LAW GROUP LLP

96 Jessie Street

San Francisco, CA 94105

(415) 649-6700

ben.feuer@calapplaw.com

Subscribed and sworn to before me this 10th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepte. 0. Last?

Notary Public

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Drive

Durham, NC 27708
(202) 383-5319

Onder h, ale

Affiant 39975
SERVICE List

Brianne Jenna Gorod
Constitutional Accountability Center
1200 18th Street, NW
Suite 501
Washington, DC 20036
(202) 296 6889
brianne@theusconstitution.org
Counsel for Petitioners Richard Blumenthal, et al.

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent Donald Trump
